HHS/OIG, Audit -"Medicaid Payments for School-Based Health Services Lynn, Massachusetts -July 1999 Through June 2000,"(A-01-02-00003)
Department
of Health and Human Services
"Medicaid Payments for School-Based Health Services Lynn, Massachusetts
- July1999 Through June 2000," (A-01-02-00002)
January 15 , 2003
Complete
Text of Report is available in PDF format (1.36 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based
health services by the Lynn Public Schools through the Commonwealth of Massachusetts
were reasonable, allowable and adequately supported in accordance with the
terms of the state Medicaid plan and applicable federal regulations. The audit
period included Medicaid payments made during the period July 1, 1999 through
June 30, 2000.
We found that the Lynn Public Schools inappropriately claimed the cost of
school-based health services when documentation was inadequate, providers did
not have the required qualifications, the student did not have a valid individualized
education plan (IEP), the incorrect prototype was used and the school was closed
for in-service days. As a result, we estimate that the Lynn Public Schools
were overpaid at least $250,901. The Lynn Public Schools also received payments
totaling $8,510 for days when the schools were not open (vacations, holidays,
etc.). We made procedural recommendations to Lynn Public Schools to address
these issues. We also recommended that the Lynn Public Schools refund amounts
that were inappropriately paid by the Medicaid program.  Lynn Public Schools
officials disagreed with the finding and recommendations regarding documentation
of services, provider qualifications, and IEPs. They agreed with the findings
and recommendations regarding prototypes and days when the schools were closed.